OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/HAITI’S
WATERSHED INITIATIVE FOR
NATIONAL NATURAL
ENVIRONMENTAL RESOURCES
PROGRAM
AUDIT REPORT NO. 1-521-12-003-P
APRIL 27, 2012




SAN SALVADOR, EL SALVADOR

Office of Inspector General


April 27, 2012

MEMORANDUM

TO:    	         USAID/Haiti Mission Director, Carleene Dei

FROM: 	          Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:	        Audit of USAID/Haiti’s Watershed Initiative for National Natural Environmental
                 Resources Program (Report No. 1-521-12-003-P)

This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft report and have included those comments in their
entirety in Appendix II of this report.

The final report includes 12 recommendations to help the mission improve various aspects of
the Watershed Initiative for National Natural Environmental Resources Program. Based on your
written comments in response to the draft report, final action has been taken on
Recommendation 9, and management decisions have been reached on Recommendations 1, 2
3, 5, 6, 7, 8, 10, 11, and 12. Please provide the Audit Performance and Compliance Division of
USAID’s Office of the Chief Financial Officer with evidence of final action to close the open
recommendations.

A management decision was not reached on Recommendation 4. Please provide written notice
within 30 days of any action planned or taken to implement this recommendation.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel. (503) 2501-2999—Fax (503) 2228-5459
www.usaid.gov/oig
CONTENTS 

Summary of Results ....................................................................................................... 1 


Audit Findings................................................................................................................. 5 


     USAID Did Not Evaluate the Impact of Changed Geographic Focus ........................ 5 


     USAID/Haiti Did Not Conduct Sufficient Environmental Oversight for

     Some Activities............................................................................................................ 6 


     A $2.3 Million USAID/Haiti Infrastructure Project Is at Risk ...................................... 10 


     USAID/Haiti Did Not Encourage Safe Handling of Pesticides or 

     Promote Pesticide Alternatives ................................................................................. 12 


     USAID/Haiti Did Not Meet Biodiversity Code Criteria ............................................... 15 


Evaluation of Management Comments....................................................................... 17 


Appendix I—Scope and Methodology ........................................................................ 19 


Appendix II—Management Comments ....................................................................... 21 


Appendix III—Key Program Activities as of July 2011 .............................................. 26 



Abbreviations

The following abbreviations appear in this report:

ADS                  Automated Directives System
CFR                  Code of Federal Regulations
COTR                 contracting officer’s technical representative
EMPR                 environmental mitigation plan and report
IEE                  initial environmental examination
IQC                  indefinite quantity contract
MEO                  mission environmental officer
PEA                  program environmental assessment
PERSUAP              Pesticide Evaluation Report and Safer Use Action Plan
PPP                  public-private partnership
RIG                  Regional Inspector General
WINNER               Watershed Initiative for National Natural Environmental Resources
SUMMARY OF RESULTS 

Haiti’s watersheds have long been in decline. By 1920, unchecked logging had already
deforested about 40 percent of Haiti’s surface area, and by 1980, the increasing demand for
charcoal required by a growing urban population left only about 5 percent of Haiti forested.
Today only an estimated 2 percent of Haiti is forested.1 The absence of vegetation in Haiti’s
watersheds has left the country extremely vulnerable to the effects of tropical storms and
hurricanes. These increasingly frequent storms trigger severe flash floods that originate in
eroded watersheds, wash down on local communities, and often result in loss of human life.2

To address the problem of watershed degradation, USAID/Haiti launched the Watershed
Initiative for National Natural Environmental Resources (WINNER) program in 2009. The
mission designed this program to reduce environmental and economic vulnerability through the
rehabilitation and improved management of specific watersheds in Haiti. To implement
WINNER, USAID/Haiti signed a cost-plus-fixed-fee completion contract with Chemonics
International Inc. (Chemonics) covering the period from June 1, 2009, to May 31, 2014. The
program’s authorized funding is $128 million; as of September 28, 2011, obligations and
expenditures under the program totaled $44.6 million and $35.3 million, respectively.

A year after the devastating earthquake in January 2010, USAID/Haiti, in collaboration with the
U.S. Department of State, realigned its country strategy. Instead of conducting activities
throughout the country, USAID/Haiti began to concentrate them in the three geographic
corridors expected to provide the greatest opportunity for industry, exports, and agricultural
production. The mission is focusing on agriculture because Haiti produces less than half the
food it consumes.

Consistent with the post-earthquake strategy, USAID/Haiti approved a March 2011 contract
modification that shifted the focus of WINNER’s activities from watershed rehabilitation and
management to sustainable agriculture. The modification also required Chemonics to
implement WINNER activities only in the Saint Marc and Cul de Sac development corridors.

The illustration on the following page shows the three corridors now targeted by USAID/Haiti.

The Regional Inspector General/San Salvador (RIG/San Salvador) conducted this audit to
determine whether WINNER was achieving its main goals of reducing economic and
environmental vulnerability in Haiti. In addition, the Inspector General Act of 1978 requires
auditors to promote economy, efficiency, and effectiveness in the administration of USAID
programs and to prevent and detect fraud and abuse in such programs and operations.

The audit found that, during its first 2 years of operation under the original strategy, the program
implemented numerous activities that could reduce environmental and economic vulnerability
through improved management and rehabilitation of watersheds. Specifically, the program
improved watershed management by promoting local watershed governance, fortifying ravines
and rivers against flooding, and dredging rivers and canals. On the economic side, the program

                                                            
1
    United States Institute of Peace, Special Report, “Haiti after the Donor’s Conference – A Way Forward,”
    September 2009.
2
    “Environmental Vulnerability in Haiti – Findings and Recommendations,” prepared for USAID by
    Chemonics International Inc. and the U.S. Forest Service, April 2007.

                                                                                                         1
                                                 Map of USAID/Haiti Development Corridors




Source: USAID/Haiti.

promoted alternate sources of income (such as poultry and flower production), trained farmers
in modern agricultural techniques, and set up numerous demonstration farms to disseminate
improved agricultural practices. The program also supported the installation of effective low-
tech flood early warning systems. In all, as of July 2011 WINNER had supported 240 projects3
with expenditures of $19.1 million (detailed in Appendix III).

Despite these accomplishments,                                 the   audit   disclosed   various   problems   related   to
implementation:

	 USAID/Haiti’s revised country strategy shifted the focus of WINNER activities away from the
   Gonaïves/La Quinte watershed (page 5). Because of the mission’s desire to implement the
   revised strategy rapidly, USAID/Haiti did not evaluate the impact of the changes on activities
   under way in the watershed.

	 USAID/Haiti’s contract with Chemonics did not specify procedures for environmental
   compliance, and USAID/Haiti did not conduct sufficient environmental oversight for some

                                                            
3
    An additional 57 activities were planned, but either were not yet started (25) or had been dropped (32).

                                                                                                                        2
       activities (page 6). Without adequate oversight, Chemonics did not prepare required
       assessments and plans or test water quality, and USAID environmental officials were not
       aware that work by Chemonics on a drainage canal was taking place in a wetland that is
       home to bird species classified as “near threatened.” Those deficiencies and the exclusion
       of the mission environmental officer (MEO) from deliberations on contract modifications may
       harm human health and the environment.

	 A $2.3 million USAID/Haiti infrastructure project is at risk (page 10). People living near the
   Grise River, which the program has widened and dredged to minimize the risk of flooding,
   continue to mine river sediments and dump trash in the river. Mining weakens the retaining
   walls built by the program on riverbanks, and dumping negates the dredging efforts, but both
   practices continue because the Government of Haiti has not taken steps to stop them.

    	 USAID/Haiti did not establish controls to encourage safe handling of pesticides or prevent
       their improper use and did not promote pesticide alternatives (page 12). During visits to
       agricultural supply stores, auditors noted opened bags of pesticides (indicating the sale of
       smaller quantities, packaged without instructions), instructions on pesticides and treated
       seeds printed in languages other than French and Creole (the languages spoken in Haiti),
       the absence in some stores of protective equipment, and the presence of pesticides not
       recommended by the mission’s Pesticide Evaluation Report and Safer Use Action Plan
       (PERSUAP).

	 USAID/Haiti did not meet USAID’s biodiversity code criteria (page 15). Not having
   objectives explicitly related to the promotion of biodiversity in areas known to be biologically
   significant, the program fell short of Agency standards.

To help improve the efficiency and effectiveness of WINNER, RIG/San Salvador recommends
that USAID/Haiti:4

1. 	Develop a transition plan for the cessation of activities in the Gonaïves/La Quinte
    watershed, outlining the disposition of assets developed as a result of the program’s
    activities (page 6).

2. 	Prepare a modification to the WINNER contract to include language for compliance with
    environmental requirements in Title 22 of the Code of Federal Regulations, Part 216
    (page 10).

3. 	 Consult with the environmental compliance staff and develop a written assessment of what
     further environmental evaluations may be required for the irrigation rehabilitation of the
     Grise River, the Boucanbrou drainage canal, and the value chain5 for mango exports
     (page 10).

4. 	 Implement water quality testing and document the results of these tests (page 10).

                                                            
4
  The report initially included 5 additional recommendations related to revised program activities not within
  the IQC scope, contract deliverables not defined and agricultural activities not incorporating food
  security best practices. These issues were subsequently addressed in a management letter to
  USAID/Haiti.
5
  A value chain links all the stages and actors involved in the development of a product or service—in this
  case mangoes—from input suppliers to end-market buyers.

                                                                                                           3
5. 	Develop procedures to integrate the regional environmental advisor and the MEO into
    planning, design, and monitoring of WINNER activities (page 10).

6. 	Determine and document the necessary actions to ensure that Chemonics provides
    adequate environmental oversight for WINNER (page 10).

7. 	Develop a sustainability plan for future program infrastructure works prior to undertaking
    further construction activities on the Grise River (page 12).

8. 	 Develop a plan for promoting the use of nonchemical fertilizers and pesticides in agricultural
     supply stores (page 14).

9. 	Provide integrated pest management courses to all farmers attending WINNER’s master
    farmer training (page 14).

10. Develop formal procedures for periodically monitoring WINNER-supported supply stores
    (page 15).

11. Obtain 	training in biodiversity for its staff and consult with biodiversity staff in
    USAID/Washington on their program adjustments or design (page 16).

12. Issue a mission policy for documenting its application of funds earmarked for biodiversity to
    ensure that all biodiversity code requirements are met (page 16).

Detailed findings follow. The audit scope and methodology are described in Appendix I. Our
evaluation of USAID/Haiti’s management comments appears on page 18, and the mission’s
comments appear in Appendix ll.




                                                                                                 4
AUDIT FINDINGS 

USAID Did Not Evaluate the Impact of
Changed Geographic Focus
USAID/Haiti awarded Chemonics the WINNER contract under an indefinite quantity contract
(IQC)6 for Integrated Water and Coastal Resources Management. The initial purpose of the
contract was for Chemonics to implement sustainable natural resource management activities at
the scale and density needed to reduce environmental, infrastructural, and economic
vulnerability, primarily in the Cul de Sac, Cabaret, and Gonaïves/La Quinte watersheds.  

However, in January 2011, USAID issued its new strategy for Haiti. This new strategy focused
on stimulating economic activity and enhancing the delivery of basic services in three
designated development corridors. USAID/Haiti revised its approach for assistance to Haiti and
modified its contract with Chemonics, redirecting work to two of the three development
corridors. Because the Gonaïves/La Quinte watershed fell outside the corridor areas,
USAID/Haiti instructed Chemonics to phase out its activities in that watershed.

Consequently, Chemonics cancelled 15 of 57 planned activities in the region. As of July 2011,
USAID/Haiti had expended $5.3 million in the Gonaïves/La Quinte watershed, representing 28
percent of total program funds spent. A Chemonics representative said WINNER had built a
foundation in the Gonaïves/La Quinte watershed, but much needed work remained. He further
said the weak capacity of the Government of Haiti meant that the flood prevention work done
would likely not be maintained.

Some examples of activities affected by the change in geographic focus include:

	 A $255,000 investment for a drain study and dredging activity. Chemonics did not
   complete the masonry work and did not plan to fund follow-up maintenance work.

	 A $2 million investment to widen the La Quinte River. This activity, shown on the
   following page, accounts for about 80 percent of the Chemonics flood protection work in the
   watershed. Chemonics halted work in the region before establishing a sustainability plan to
   ensure that needed follow-up dredging will be performed.

	 Ravine treatments. Chemonics will halt about 60 percent of planned treatments,
   significantly reducing flood prevention efforts in the region.

	 Studies for ravine treatments. Chemonics completed at least three studies for ravine
   treatments in the Gonaïves watershed that it never used.




                                                            
6	
     An IQC is an umbrella contract that allows USAID missions to expedite procurement by using the
     services of qualified contractors through a limited competitive bidding process or noncompetitive
     awards. The awards, called task orders, can be for any value.

                                                                                                    5
                   Cleanup of the overgrown drainage canal (left) was cancelled after the shift in program 

                       focus, and the La Quinte River widening (right) is at risk without maintenance.

                                 (Photos by the Office of Inspector General, July 25, 2011) 


Because of the mission’s desire to implement the revised strategy rapidly, USAID/Haiti did not
evaluate the impact of the halt of activities in the Gonaïves/La Quinte watershed as economic,
efficient and effective program management would dictate. To ensure that USAID/Haiti
considers the impact of cancelling activities in the Gonaïves/La Quinte watershed, we make the
following recommendation.

       Recommendation 1. We recommend that USAID/Haiti develop a plan for the cessation
       of activities in the Gonaïves/La Quinte watershed, outlining the disposition of assets
       developed by the program.

USAID/Haiti Did Not Conduct
Sufficient Environmental
Oversight for Some Activities
USAID’s Automated Directives System (ADS), Chapter 204, “Environmental Procedures,” states
that USAID must fully comply with environmental procedures established in the Code of Federal
Regulations (22 CFR 216). USAID is required to “integrate environmental issues into its
programs, both to meet U.S. Government legal environmental obligations and to optimize
economic and social development results.” Supplementary guidance to ADS 2047 provides
recommended language on environmental procedures to include in requests for proposals and
award documents. The purpose is to give USAID time to conduct environmental review and
incorporate environmental factors and mitigating measures in the design and approval of each
program and activity before making an irreversible commitment of resources.

Specific procedures for ensuring compliance with 22 CFR 216 include:

                                                            
7	
     “Environmental Compliance: Language for Use in Solicitations and Awards—An Additional Help for
     ADS Chapter 204.”

                                                                                                               6
	 Initial environmental examinations (IEEs). An IEE is the first review of the reasonably
   foreseeable effects of a proposed action on the environment. The IEE provides the factual
   basis for a determination as to whether an environmental assessment will be required.

	 Environmental assessments. An environmental assessment is a detailed study that
   describes the reasonably foreseeable significant effects, both beneficial and adverse, of a
   proposed action on the environment of a foreign country or countries.

	 Programmatic environmental assessments (PEAs).                   A PEA is an environmental
   assessment for a sector (such as agriculture) or a larger program (such as road
   construction) that will eventually contain several projects or subgrants.

	 Environmental mitigation plan and reports (EMPRs). These documents must be
   submitted by the contractor to USAID prior to commencing activities that will likely have
   adverse environmental impact.

The individuals tasked with implementing these procedures and ensuring environmental
compliance are shown in the following table, along with the documents that assign
responsibilities.

                      Officials Charged With Environmental Compliance

       Official                                 Responsibilities                     Document
                          Assist and advise activity managers or technical
                          representatives of contracting or agreement officers and
MEO - USAID               their implementing partners and contractors in preparing   ADS 204.3.5
                          required documents on new activities and in monitoring
                          compliance on ongoing activities.
                          Provide supplementary professional support, training,
Regional
                          compliance auditing, compliance evaluations, and
Environmental                                                                        ADS 204.3.5
                          regional coordination on matters related to 22 CFR 216
Advisors - USAID
                          to mission staff in the assigned region, including MEOs.
                          Minimize the potential for adverse environmental impact
Biodiversity Specialist
                          by ensuring the implementation of mitigation measures      WINNER PEA
- Contractor
                          outlined in the PEA for all WINNER components.

The WINNER IEE determined that actions proposed under the program would have significant
effects on the environment, including (1) rehabilitation or construction of irrigation systems that
water more than 100 hectares of cropland, (2) drainage of wetlands, and (3) permanent
modification of the habitat supporting an endangered species. The IEE determined that
environmental assessments should be performed for all such activities. In addition, the
WINNER PEA required that value chains be environmentally sound and that Chemonics
develop a water quality monitoring and testing plan for potable water projects.

Despite the ADS guidance, the WINNER contract did not contain any of the recommended
language regarding contractor compliance with environmental procedures. Furthermore,
USAID/Haiti and Chemonics did not conduct sufficient environmental assessment and mitigation




                                                                                                   7
efforts for several activities that were either included in the audit sample or identified during
audit work.8 Specifically, the audit disclosed:

	 Insufficient environmental assessment and mitigation efforts for the Grise River
   irrigation system. Before completing a design study, Chemonics undertook extensive
   rehabilitation work in early 2010 of this irrigation system constructed in the 1950s. As of
   July 2011, Chemonics had spent $804,563 on this activity, which helps irrigate
   approximately 5,000 hectares.

   Chemonics did not complete an environmental assessment for this activity as required by
   the IEE. Furthermore, USAID/Haiti did not approve the WINNER PEA until March 2011,
   almost a year after Chemonics initiated work on the Grise River irrigation system. The PEA
   included a lengthy list of mitigation measures for irrigation system repair projects, including a
   review by the Chemonics biodiversity specialist, the establishment of limits for allowable
   irrigation water use, and an analysis of downstream effects. However, none of these
   mitigation measures were implemented in connection with the Grise River irrigation system.

	 Insufficient environmental assessment and review of Boucanbrou drainage canal
   rehabilitation. Haiti’s Ministry of Public Works asked Chemonics to complete the clearing
   of the Boucanbrou drainage channel. As part of this project, much of the overflow from the
   Trou Caiman pond was to be diverted to the sea in an effort to control flooding.

   Chemonics’ EMPR described the area as a wetland that was home to 104 species of birds,
   three of which are endemic to the Caribbean and seven of which are endemic to Haiti.
   Among these ten species, two are classified as vulnerable by the International Union for
   Conservation of Nature, and four other species are described as "near threatened.” Despite
   the sensitivity of the areas, the EMPR for Trou Caiman was conducted after the activity had
   already begun and was never submitted for USAID/Haiti review. Furthermore, given the
   requirements of the IEE related to wetlands and endangered species, an EMPR was not
   sufficient for this activity; an environmental assessment should have been completed.
   Neither USAID/Haiti’s MEO nor the regional environmental advisor was aware that this
   activity was taking place in a sensitive wetland region.

	 Lack of testing of drinking water quality. To improve access to potable water, the
   program supports spring-fed potable water projects, including one in the Gonaïves region
   and one in the Kenscoff region.

   The IEE in place when the activity began required the implementer to (1) conduct a water
   quality assessment to determine whether the water is safe to drink and (2) establish a
   baseline for detecting future changes in potability. The IEE required that, at a minimum,
   arsenic and fecal coliform tests be conducted. Neither USAID nor Chemonics ensured that
   water testing was done for any of the WINNER activities.

   The WINNER PEA requires Chemonics to develop a water quality monitoring and testing
   plan for water intended for drinking (by humans or livestock). The testing plan must follow
   the Government of Haiti’s testing requirements.

       Elevated levels of arsenic in water supplies have been detected in some locations in Haiti.
                                                            
8
     We reviewed a judgmental sample of 47 out of 240 activities implemented under WINNER.   


                                                                                                  8
       Because of the carcinogenic nature and other health effects (such as damage to the nervous
       system and blood vessels, blindness, and reproductive problems) of even low levels of arsenic
       in drinking water, USAID/Haiti needs to be certain that drinking water supplied by the program
       meets quality standards. However, Chemonics did not test water quality during the planning
       phase or after project implementation for these two water systems.

      No evaluation of environmental impacts of the mango value chain. The postearthquake
       U.S. Government strategy for Haiti targets the doubling of exports of Francisque mangoes
       and cocoa over 5 years. In addition, the Chemonics FY 2012 WINNER implementation plan
       proposes new mango orchards and the construction of mango collection and processing
       centers.

       According to the program’s PEA, the implementer should ensure that for all public-private
       partnerships, the value chain is environmentally sound. The implementer should complete a
       value chain study, and the Chemonics biodiversity specialist should review this study before
       funding any partnership. Despite these requirements, neither USAID/Haiti nor Chemonics
       completed an environmental evaluation of the mango value chain. The regional
       environmental advisor said that the mango value chain should have an environmental
       assessment, especially since it is a large, high-priority, and a highly visible value chain. The
       Chemonics environmental specialist agreed that biodiversity impact should be considered
       when selecting the value chains. He stated that Haiti’s multiple microclimates support many
       varieties of mango, and choosing to promote only one could have unintended environmental
       impacts.

Some program activities did not receive sufficient environmental oversight because both the
implementer and the mission lacked the necessary staff. The mission went from April 2010
through February 2011 without a full-time MEO. The WINNER contracting officer’s technical
representative (COTR)9 at the time was new to the organization and was also serving as the
MEO for the mission. Prior to the audit, the MEO had not visited any WINNER activities, as
required by the IEE and the PEA. Furthermore, the Chemonics environmental specialist
reported that he did not have sufficient time to devote to environmental oversight because he
was also responsible for conducting the environmental training courses. He requested an
assistant, but the request was denied by USAID for budgetary reasons.

Oversight was also insufficient because Chemonics and the COTR did not keep the MEO
informed of relevant environmental issues. For example, the IEE states that the implementer’s
chief of party is to submit the EMPR to the COTR and MEO for their review and final approval.
However, only the COTR was approving the EMPRs; the MEO was not included in the process.
In addition, the MEO was not consulted regarding contract modifications, although these
contained significant changes in the program approach that merited the MEO’s attention.

Given the nature of its activities, the program has the potential to affect the environment
significantly. Unless the contract contains the ADS-recommended language, environmental
compliance requirements may not be fully integrated into project designs, work plans, and
budgets. Without providing the proper environmental oversight, USAID/Haiti runs the risk of
harming human health as well as Haiti’s already fragile environment. Therefore, we make the
following recommendations.
                                                            
9	
     On January 1, 2012, USAID changed the term “COTR” to “COR” (contracting officer’s representative) to
     align with changes in the Federal Acquisition Regulation. Because audit fieldwork occurred before the
     change, this report uses COTR.

                                                                                                        9
       Recommendation 2. We recommend that USAID/Haiti prepare a modification to the
       Watershed Initiative for National Natural Environmental Resources contract to include
       language on compliance with environmental requirements in Title 22 of the Code of
       Federal Regulations, Part 216.

       Recommendation 3. We recommend that USAID/Haiti consult with the environmental
       compliance staff and develop a written assessment of what further environmental
       evaluations may be required for the rehabilitation of the Grise River irrigation system, the
       Boucanbrou drainage canal, and the mango export value chain.

       Recommendation 4. We recommend that USAID/Haiti implement water quality testing
       as appropriate according to USAID requirements and the requirements of the program
       environmental assessment and document the results of these tests.

       Recommendation 5. We recommend that USAID/Haiti develop procedures to integrate
       the regional environmental advisor and the mission environmental officer into the
       planning, design, and monitoring of Watershed Initiative for National Natural
       Environmental Resources activities.

       Recommendation 6. We recommend that USAID/Haiti determine and document the
       actions that Chemonics must take to provide adequate environmental oversight for the
       Watershed Initiative for National Natural Environmental Resources program.

A $2.3 Million USAID/Haiti
Infrastructure Project Is at Risk
ADS 201.3.8, “Program Planning: Assistance Objective,”10 states that USAID missions and
offices should devise foreign assistance programs and activities to have the greatest possible
development impact. Furthermore, this impact should be sustainable. USAID defines this
concept in its Strategy for Sustainable Development as that which “permanently enhances the
capacity of a society to improve its quality of life.”

One of the program objectives is to rebuild and maintain critical infrastructure, including flood
protection works. USAID/Haiti’s contract with Chemonics identified the Grise River as one of
the factors with greatest potential for causing catastrophic flooding in Port-au-Prince. To help
prevent flooding, Chemonics began in the spring of 2010 to dredge, widen, and stabilize the
banks of a 12-kilometer stretch of the Grise River. The work was completed by the end of 2010
at a cost of about $2.3 million.

However, the completed work is being seriously undermined by the local population’s tendency
to mine (remove) river sediments, which weakens the riverbank retaining walls known as
gabions, and to dump trash in the river. These problems are detailed below.

Removal of River Sediments. Removal of the river sediments has weakened the gabions
constructed by the program to protect the riverbanks from erosion. The weakening caused the
collapse of some of the gabions (like those shown in the following pictures) during Hurricane

                                                            
10
     ADS 201.3.8, was revised on January 17, 2012. The citations in this report refer to the previous version
     of ADS, in effect at the time of the audit.

                                                                                                          10
Tomas in November 2010. Workers told us they could make $10 per hour—significantly higher
than the national minimum wage of $5 per day—by extracting river sediments, which can be
used in making building materials. With an unemployment rate in Haiti of 41 percent11 and the
demand for building materials remaining high since the January 2010 earthquake, mining
sediment is an economically attractive option.




               River sediment mining weakens gabions (left) and eventually results in their collapse (right).
                               (Photos by the Office of Inspector General, July 29, 2011)

Dumping Trash. Uncontrolled dumping of trash in sites like the one shown below has occurred
since the start of the project, even during the dredging operation. According to a local resident,
there is no system of trash removal in the community, making the river the most accessible
place to dispose of trash. The uncontrolled dumping is refilling the areas where Chemonics has
dredged.




                              Garbage accumulates in a site recently cleared of garbage by the program.
                                      (Photos by the Office of Inspector General, July 29, 2011)

The infrastructure work is at risk because Chemonics was slow to identify and take action to
mitigate these problems and because the Government of Haiti has not fulfilled its commitments
                                                            
11
     CIA Fact Book, 2010 estimate.

                                                                                                                11
to stop the activities that undermine the gabions and disrupt the riverbanks. In November 2010,
8 months after the start of the project, Chemonics officials met with Government of Haiti
officials, who agreed to issue a communiqué to stop certain detrimental practices. However, as
of July 2011, no communiqué had been issued, and the mining and dumping continue
unabated. Although riverbed mining and trash dumping were identified in the project’s 2009
EMPR and continued throughout project implementation, Chemonics did not develop a plan to
mitigate these activities or mention these problems in quarterly reports until the first quarter of
FY 2011 (the end of 2010).

According to Chemonics officials, unless the local population stops mining sediments adjacent
to the gabions and dumping trash, the river will again pose a high flood risk, possibly in as little
as 3 years. Furthermore, since Chemonics’ proposed FY 2012 work plan includes a $650,000
project to build more gabions in the same location, this additional work, along with the original
$2.3 million investment, would be at risk if effective regulations are not established. Therefore,
we make the following recommendation.

   Recommendation 7. We recommend that USAID/Haiti, in coordination with the
   appropriate Government of Haiti officials, develop a sustainability plan that establishes
   which entities are responsible for maintaining infrastructure before undertaking further
   construction activities on the Grise River.

USAID/Haiti Did Not Encourage
Safe Handling of Pesticides or
Promote Pesticide Alternatives
As part of WINNER, Chemonics provides pesticides to agricultural input supply stores—
commercial outlets where items such as seeds and fertilizer are available for sale. As of
December 2010, Chemonics reported that it was assisting 37 such stores. While the support for
the stores is relatively small, totaling $2.7 million as of July 2011, a large number of Haiti’s
farmers can purchase the products offered at these stores. For this reason, improper handling
of the pesticides by the input stores, and by the farmers who purchase them, is a significant
environmental concern.

According to 22 CFR 216, all proposed projects involving assistance for the procurement or use,
or both, of pesticides shall include an evaluation of factors such as the proposed method or
methods of application, including:

	 The availability of appropriate application and safety equipment.

	 The availability and effectiveness of other pesticides or nonchemical control methods.

	 The requesting country’s ability to regulate or control the distribution, storage, use, and
   disposal of the requested pesticide.

	 The provisions made for training of users and applicators.

According to 22 CFR 216, when a project includes assistance for procurement or use of
pesticides, or both, provisions should be included for monitoring the use and effectiveness of
the pesticide. In addition, ADS 204 requires the MEO to assist the COTR in monitoring
compliance on ongoing activities.

                                                                                                 12
Furthermore, the USAID/Haiti missionwide PERSUAP noted that the ways in which farmers use
pesticides in Haiti are quite dangerous to health and the environment. According to the
PERSUAP, the majority of farmers using agrochemicals reported unsafe practices in all stages
of use: mixing, dosage, application, storage, and disposal. The PERSUAP notes that farmers,
although generally aware of the dangers, often lack the technical knowledge, resources, and
information to take the proper precautions. The PERSUAP also states that training in the proper
use of pesticides can mitigate the dangers posed by improperly handling them.

The PERSUAP further notes that WINNER will promote responsible integrated pest
management strategies that emphasize pesticides as a control method of last resort and
provide ample nonchemical control options to minimize risk to users, community members, and
the environment. USAID guidelines12 also promote integrated pest management; core elements
of this approach include minimizing pesticide use and minimizing health and environmental risk
when pesticides are used.

Despite the guidance, Chemonics promotes the use of chemical fertilizers and pesticides by
providing these products to the agricultural supply stores that support WINNER’s agricultural
campaigns. Chemonics has not included organic options in its provisioning of the agricultural
supply stores, missing a chance to provide important alternatives for farmers.

Furthermore, despite the importance of safe pesticide use and storage, auditors observed
numerous problems (shown in the following photos) with pesticide handling during site visits to
six WINNER-assisted stores. Some of the conditions noted included opened bags of pesticides
(indicating the sale of smaller quantities, packaged without instructions), instructions on
pesticides and treated seeds generally not in French or Creole (languages spoken in Haiti),
absence in some stores of protective equipment, and the presence of pesticides not
recommended by the PERSUAP.




 Label on chemically treated Monsanto seed warns of environmental hazards (left); open bags (right) near the
      kindergarten-based store. (Photos by the Office of Inspector General, July 28 and August 5, 2011)




                                                            
12
     USAID Bureau for Latin America and the Caribbean, “Environmental Issues and Best Practices for
     Agriculture and Watershed Management.”

                                                                                                         13
                    Sign indicates the agrosupply store located in a kindergarten (left) while construction 

                                    proceeds on a new store adjacent to the kindergarten.

                                 (Photos by the Office of Inspector General, August 5, 2011)


In several stores, auditors observed opened bags of WINNER-provided chemically treated
Monsanto corn seed (shown on the previous page). This corn is treated with, among other
things, deltamethrin, which is a restricted-use pesticide13 with a Class I14 toxicity level.
Instructions for application are attached to the bag but are in English. One such store was
located in the kindergarten shown above,15 and the treated corn seed was found on the ground
inside and outside the store shown above. In addition, the store located in the kindergarten did
not stock any protective equipment such as gloves or masks. As reported in the PERSUAP,
unsafe handling of pesticides is dangerous to health and the environment.

These problems occurred because training was not comprehensive and oversight of supply
stores was inadequate. The basic courses in Chemonics’ farmer training program do not
include training in proper pesticide use or integrated pest management. Instead, this training is
included in only one specialty course, which is not offered to all farmers. Pesticide packaging
and storage problems persist at the supply stores because USAID/Haiti and Chemonics
environmental staff did not monitor them; neither the regional environmental advisor nor the
MEO had visited any of the supply stores at the time of the audit.16

In light of this information, we make the following recommendations.

       Recommendation 8. We recommend that USAID/Haiti develop a plan for promoting the
       use of nonchemical fertilizers and pesticides in agricultural supply stores.

       Recommendation 9. We recommend that USAID/Haiti develop and provide to all
       farmers in the master farmer training program an integrated pest management training
       course that covers, at a minimum, safe pesticide use, essential protective equipment,
       and nonchemical control options.

                                                            
13
     WINNER obtained waivers from USAID/Haiti for certain restricted-use pesticides.
14
     According to the U.S. Environmental Protection Agency, Class I pesticides are the most toxic and must
     bear the warning “Danger–Poison” (http://www.pesticidebook.com/pdfs/chapter21_pages240-244.pdf).
15
     The supply store was temporarily located in one of the kindergarten’s classrooms while the farmer’s
     association was building a new store as an add-on to the kindergarten.
16
     Subsequently the MEO visited three agrosupply stores, noting problems particularly with one of the
     three with the dispensation of the pesticides.

                                                                                                                14
       Recommendation 10. We recommend that USAID/Haiti’s mission environmental officer,
       in conjunction with Chemonics, develop formal procedures for periodically monitoring
       program-supported supply stores.

USAID/Haiti Did Not Meet
Biodiversity Code Criteria
USAID’s biodiversity code (http://www.usaid.gov/ourwork/environment/biodiversity/code.html)
includes four criteria, all of which must be met for activities and funds to be attributed to the
biodiversity earmark.17 Specifically:

              	 “The activity must have an explicit biodiversity objective; it isn’t enough to
                 have biodiversity conservation result as a positive externality from another
                 program;
               Activities must be identified based on an analysis of threats to biodiversity;
               The program must monitor associated indicators for biodiversity conservation;
               Site-based programs must have the intent to positively impact biodiversity in
                 biologically significant areas.”

In FY 2010, USAID/Haiti received earmarked funding totaling $2 million for biodiversity
projects. Although the mission subsequently received a partial reprieve from meeting the
earmark requirements (requiring only $200,000 of the $2 million to be attributable to the
earmark), the mission nevertheless tried to program the full $2 million, with $1.35 million
attributed to WINNER and the remainder to another USAID/Haiti watershed management
project. Of the $1.35 million, the majority ($1.2 million) was used for agroforestry efforts. As
illustrated below, had USAID/Haiti not received a reprieve, it would not have met the earmark
requirements for FY 2010 because the mission did not meet the four criteria of the biodiversity
code.

	 WINNER lacked explicit biodiversity objectives. The original WINNER contract states
   the purpose of the program is to reduce environmental, structural, and economic
   vulnerability in select watersheds in Haiti. The March 2011 contract modification states that
   the new purpose is to boost agricultural production in select productive plains. Neither
   program contained an explicit objective to conserve biodiversity.

	 Almost none of WINNER’s activities were based on analyses of threats to
   biodiversity. According to the biodiversity code, primary threats to biologically significant
   ecosystems/areas should be identified, and program interventions should be designed to
   address them. The 2006 biodiversity assessment for Haiti identified mangroves and coastal
   wetlands as some of the most vulnerable areas in Haiti. While WINNER included one
   activity related to this identified threat—an inventory of significant biological sites including
   mangroves and forested areas—this activity was never started.                  The biodiversity
   assessment also states: “Careful attention must be paid to the possible effects of increased
   agricultural production.” However, WINNER’s goal to increase agricultural production could
   increase the threat to the environment from chemical fertilizer and pesticide use.



                                                            
17
   An earmark is a provision in legislation allocating a specified amount of money for a particular project,
program, or organization.

                                                                                                         15
	 Chemonics does not monitor associated indicators for biodiversity conservation. The
   performance management plan includes six of USAID’s standard natural resources and
   biodiversity indicators, but Chemonics monitored only three of the six indicators consistently;
   it did not report any results for three of the indicators in quarterly reports covering July 2009
   through December 2010. In separate information provided to the audit team, Chemonics
   subsequently reported environmental awareness activities around Parc la Visite (one of
   Haiti’s few protected areas) as contributing to one of these indicators—Number of hectares
   in areas of biological significance under improved management as a result of U.S.
   Government assistance. However, only 10 hectares were reported for this indicator,
   whereas the cumulative project goal is 10,000 hectares.

   With regard to the three biodiversity indicators for which WINNER reported results,
   Chemonics claimed that its agroforestry efforts were restoring biodiversity. However,
   WINNER’s agroforestry efforts have had limited success, and only income-generating
   trees—fruit and harvestable timber—are grown and distributed for planting. Even if these
   efforts had been more successful, they would not constitute improved biodiversity because
   they are not “positively impacting biodiversity in biologically significant areas.” The
   rehabilitation of potable water and irrigation systems, stone wall installations in ravines, and
   soil stabilization efforts are being counted toward these indicators as well. These efforts are
   not clearly linked to biodiversity conservation.

	 Most WINNER activities do not “have the intent to positively impact biodiversity in
   biologically significant areas.” Other than Parc la Visite, the program has not
   demonstrated the biological significance of the areas of operation where activities are being
   counted toward the biodiversity indicators. To the contrary, one WINNER-supported canal-
   clearing activity near a sensitive bird habitat may have harmed biodiversity conservation.

USAID/Haiti’s use of biodiversity funds did not accord with the biodiversity code because, as of
July 2011, the mission lacked staff with biodiversity expertise and a clear understanding of the
biodiversity code requirements. In addition, the program’s COTR stated that USAID/Haiti does
not usually tell implementers that they need to comply with this earmark because the scope of
work usually includes details regarding specific expectations to support the purpose of the
earmark. However, even though the Chemonics scope of work stated that the program would
address biologically sensitive areas, neither the scope of work nor the subsequent contract
specified efforts to meet the biodiversity code criteria.

Earmarks are established to ensure that money is spent on specific U.S. Government goals. By
attributing activities to the earmark that do not comply with the biodiversity code, the mission
and the Agency are overestimating the biodiversity impact of the program. USAID/Haiti
received $1 million in earmarked biodiversity funding for FY 2011. If activities that do not meet
the biodiversity criteria are once again attributed to the earmark, USAID/Haiti will continue to fall
short of the biodiversity code standards.

   Recommendation 11. We recommend that USAID/Haiti’s staff members obtain training
   in biodiversity and consult with biodiversity officials in USAID/Washington on their
   current program adjustments or new program design.

   Recommendation 12. We recommend that USAID/Haiti institute a mission policy for
   documenting its use of biodiversity earmarked funds for areas that biodiversity
   assessments have determined are biologically significant and verify that the policy meets
   all four biodiversity code requirements for earmarked funds.

                                                                                                  16
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft audit report, USAID/Haiti agreed with the 12 recommendations.
Summarized below are the comments and the audit team’s evaluation.

Recommendation 1. The mission agreed to develop a transition plan for the cessation of
activities in the Gonaives/La Quinte watershed, outlining the dispositions of assets developed as
a result of program activities. The mission approved a transition plan on October 31, 2011,
although the auditors have seen only an undated and unsigned version of it. An agreement is
being negotiated with the community in Gonaives to transfer the Centre Rural de
Développement Durable (an agricultural development center) to the not-for-profit organization
Foundation Eben Ezer to pursue the development objectives set by USAID/Haiti. The mission
further indicated that WINNER prepared only the baseline study, which will be filed in the USAID
Development Experience Clearinghouse along with technical documents needed for their
infrastructure work. Based on the mission’s described actions, a management decision has
been reached.

Recommendation 2. The mission agreed to prepare a modification to the WINNER contract to
include language for compliance with environmental requirements according to 22 CFR 216.
The mission planned to issue a modification in early April 2012. Based on this proposed action,
a management decision has been reached.

Recommendation 3. The mission agreed to consult with the environmental compliance staff
and develop a written assessment of what further environmental evaluations may be required
for the irrigation rehabilitation of the Grise River, the Boucanbrou drainage canal, and the
mango export value chain. The mission planned to implement an umbrella environmental
mitigation and monitoring plan by mid-April 2012. Based on the mission’s proposed action, a
management decision has been reached.

Recommendation 4. In response to this recommendation, to implement water quality testing as
appropriate according to USAID and PEA requirements and document the results of these tests,
the mission agreed and indicated that it plans to test drinking water provided in Gonaives. We
disagree with the response because it limits testing to water projects in Gonaives. The spirit of
the recommendation as stated, “implement water quality testing as appropriate,” is to address
all WINNER-supported spring-fed potable water projects. For this reason, a management
decision has not been reached.

Recommendation 5. The mission agreed to develop procedures to integrate the regional
environmental advisor and the MEO into the planning, design, and monitoring of WINNER
activities. The mission has hired a new staff member in the Economic Growth and Agricultural
Development Office who is responsible for helping the COTR oversee compliance of Regulation
216. This employee works in close collaboration with the MEO. The MEO organized a field visit
with the technical team in early September 2011, and joint field visits will now happen at least
twice a year. Based on these actions, a management decision has been reached.




                                                                                              17
Recommendation 6. The mission agreed to determine and document the necessary actions to
ensure that Chemonics provides adequate environmental oversight for WINNER. The mission
stated that WINNER would recruit a new professional to assist the environmental specialist by
August 2012. In addition, a new Foreign Service environmental officer, who arrived in the
Dominican Republic in February 2012, has duties including making regular trips to Haiti. Based
on the mission’s proposed action and the hiring of the new environmental officer, a
management decision reached.

Recommendation 7. The mission agreed to develop, in coordination with the appropriate
Government of Haiti officials, a sustainability plan that establishes what entities are responsible
for maintaining infrastructure prior to undertaking further construction activities on the Grise
River. Based on the mission’s proposed action, a management decision has been reached.

Recommendation 8. The mission agreed to develop a plan for promoting the use of
nonchemical fertilizers and pesticides in agricultural supply stores. It has hired Sun Mountain to
work on the issues. In addition, the mission indicated in follow-up correspondence that it is
discussing a plan with the University of Florida to reduce the use of pesticide in WINNER’s
intervention areas. Therefore, we consider that a management decision has been reached.

Recommendation 9. The mission agreed to develop an integrated pest management training
course for all farmers in the master farmer training program that will include, at a minimum, safe
pesticide use, essential protective equipment, and nonchemical control options. The mission
provided documentation showing that it had hired the environmental firm Sun Mountain to work
with WINNER on the course. In view of the action taken, this recommendation is closed on
issuance of this report.

Recommendation 10. The mission agreed to have its MEO, in conjunction with Chemonics,
develop formal procedures for periodically monitoring WINNER-supported agricultural supply
stores. The mission indicated that formal procedures would be developed and input stores
would be visited by the MEO or others every 2 months starting on March 15, 2012. Based on
the mission’s proposed actions, a management decision has been reached.

Recommendation 11. The mission agreed that its staff should obtain training in biodiversity,
and consult with biodiversity staff in USAID/Washington on how to adjust current or design
future mission programs. The mission indicated that on November 17, 2011, USAID’s senior
natural resource management officer attended biodiversity training, and at least one other
employee will be trained in the next 12 months. USAID/Haiti planned for staff in Washington to
help incorporate biodiversity activities into the Feed the Future initiative in Haiti in late March
2012. Based on the actions proposed and taken, a management decision has been reached.

Recommendation 12. The mission agreed to institute a mission policy for documenting its
application of biodiversity earmarked funds towards biologically significant areas as determined
by Haiti biodiversity assessments and ensure that it meets all four biodiversity code
requirements with earmarked funds. The mission planned to implement the recommendation by
May 30, 2012, with support from Washington biodiversity staff. Based on this proposed action,
a management decision has been reached.




                                                                                                18
                                                                                    Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/San Salvador conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objectives. We believe that the evidence obtained
provides that reasonable basis.

The purpose of the audit was to determine whether USAID/Haiti’s WINNER program was
achieving its main goals of reducing economic and environmental vulnerability in Haiti. In
addition, the Inspector General Act of 1978 requires auditors to promote economy, efficiency,
and effectiveness in the administration of USAID programs and to prevent and detect fraud and
abuse in such programs and operations.

To implement the program, USAID/Haiti signed a $127 million cost-plus-fixed-fee completion
task order contract with Chemonics that was subsequently modified to increase the authorized
funding level to $128 million. RIG/San Salvador conducted audit fieldwork at USAID/Haiti in
Port-au-Prince and various locations in the Gonaïves/La Quinte, Cabaret, and Cul de Sac
watersheds from July 19 to August 17, 2011. As of September 28, 2011, obligations and
expenditures under the program totaled $44.6 million and $35.3 million, respectively.

The audit covered the period June 1, 2009, to August 17, 2011. The audit reviewed the
program’s compliance with laws, regulations, and best practices. The audit also included site
visits and review of supporting documentation for a sample of completed and ongoing activities
in three of four watersheds where the program operates: the Gonaïves/La Quinte, Cabaret, and
Cul de Sac. Because of time constraints, we did not review activities in the Mirebalais
watershed.

In planning and performing this audit, we included in the audit scope a review of management
activities and controls established by USAID/Haiti and its contractor. Management controls
assessed included those related to the agreement process, program planning, data quality
management, reporting procedures, monitoring procedures, and portfolio reviews. Additionally,
the auditors examined the mission’s FY 2010 annual self-assessment of management controls,
which the mission is required to perform to comply with the Federal Managers’ Financial
Integrity Act of 1982 to check whether the assessment cited any relevant weaknesses.

Methodology
To answer the audit objective and to determine whether USAID/Haiti appropriately managed
program activities, we met with key USAID/Haiti personnel and contractor officials to document
their roles and responsibilities in implementing WINNER activities in Haiti.

Specifically, the auditors interviewed USAID/Haiti staff members including the COTR for
WINNER, the contracting officer, the program officer, the monitoring and evaluation specialist,
the WINNER environmental specialist, the MEO, and the regional environmental advisor. In



                                                                                            19
                                                                                        Appendix I


addition, we interviewed the biodiversity team leader in USAID’s Bureau for Economic Growth,
Agriculture and Trade.

We interviewed the contractor’s staff, including the environmental specialist. In addition, the
contractor accompanied the auditors on 7 days of site visits to WINNER activities in three
watersheds: Gonaïves/La Quinte, Cabaret, and Cul de Sac. The auditors also interviewed the
subcontractor who drafted WINNER’s PERSUAP.

To gain an understanding of the program, the audit team reviewed documents including the
preprogram assessment, contract, negotiation memorandum, contract modifications,
performance management plan, site visit reports, operating plans, portfolio reviews, and
documents required by 22 CFR 216 for environmental compliance.

We also reviewed contractor documentation including the contractor’s proposal, periodic
progress reports, work plans, subcontracts and grant agreements, procurement policies and
procedures, and documents supporting compliance with environmental requirements.

We reviewed applicable policies, regulations, and guidelines pertaining to USAID/Haiti’s
implementation of the program, including USAID’s ADS, the CFR, FAR, UN papers on food
security and USAID guidance on compliance with earmark requirements. We visited sites in
three of the four watersheds WINNER covers to see completed and ongoing activities and to
interview program beneficiaries. We judgmentally selected a wide but correlated sample of
activities in the three watersheds.

The following table lists the number and dollar amount of activities we visited, compared with
total activities (either completed or in process) as of July 2011.

                       Activities     Sample             Value of All
                                                                           Value of
                       Completed        of        %       Activities                         %
       Category                                                           Activities
                          or in      Activities        Completed or in
                                                                          Visited ($)
                        Process       Visited            Process ($)

Livelihood                 112           21       19      8,830,442        4,437,764         50
Infrastructure              73           21       29      8,283,408        6,094,855         74

Watershed Governance        31            1       3        726,149           11,074           2
Public-Private
                            24            4       17      1,235,937         706,981          57
Partnership
Total                      240           47       20     19,075,936      11,250,674          59




                                                                                                  20
                                                                                      Appendix III



MANAGEMENT COMMENTS 




TO:            Mr. Jon Chasson, RIG/San Salvador

FROM:          Carleene Dei, Mission Director /S/

DATE:          March 12, 2012

SUBJECT: Mission Response to the draft RIG Audit Report of USAID/Haiti Watershed
Initiative for National Natural Environmental Resources (WINNER) Program (Report Number
1-521-12-00X-P).

This memorandum represents USAID/Haiti’s formal response to the draft RIG Audit of the
WINNER program to determine whether subject program is achieving its main goal of reducing
economic and environmental vulnerability.

USAID/Haiti appreciates the time and effort of the RIG staff in carrying out this audit and the
professional and cooperative manner in which the audit was conducted.

General Comments:

For the 12 recommendations, USAID/Haiti presents below either clarifications or an action plan
and timetable for the implementation and/or closing of the recommendations.

Recommendation 1: We recommend that USAID/Haiti develop a transition plan for the
cessation of activities in the Gonaives/La Quinte watershed, outlining the dispositions of assets
developed as a result of the program activities.

Mission Planned Action:

USAID/Haiti submitted a plan to OIG on November 17, 2011. OIG determined that “this
document has no date or source of origin. In addition, the plan does not indicate the disposition
of studies conducted as it was discussed in the exit meeting”.

The USAID transition plan was written based on the content of the WINNER work plan
approved by USAID/Haiti on October 31, 2011. An agreement is being negotiated with the
community in Gonaives to transfer the “Centre Rural de Développement Durable” (CRDD) to


                                                                                                  21
                                                                                    Appendix III


the not-for-profit organization, Foundation Eben Ezer in order to pursue the development
objectives set by USAID/Haiti.

WINNER did not conduct specific studies for the Gonaives region. The project only prepared the
baseline study that will be filed in the Development Experience Clearinghouse (DEC), and
technical documents needed for their infrastructure work.

The Mission hopes that this clarification will allow recommendation 3 to be closed upon
issuance of the final report.

Recommendation 2: We recommend that USAID/Haiti prepare a modification to Watershed
Initiative for Natural Environmental Resources contract to include language for compliance with
environmental requirements per Title 22 of the Code of Federal Regulations, Part 216.

Mission Planned Action:

USAID/Haiti agrees with this recommendation and environmental language will be included in a
modification that will be prepared by early April 2012.

Recommendation 3: We recommend that USAID/Haiti consult with the environmental
compliance staff and develop a written assessment of what further environmental evaluations
may be required for the irrigation rehabilitation of the Grise River, the Boukanbrou drainage
canal, and the mango export value chain.

Mission Planned Action:

USAID/Haiti responded as follows to this recommendation on November 17, 2011:

“The activities listed for this recommendation fall under the WINNER IEE and are covered by
the PEA. In addition to that, an umbrella environmental mitigation and monitoring plan has been
requested from WINNER; such a plan can be used for multiple sites where the same activity is
being implemented. Fate of the removed silt and debris must be in accordance with the
recommendations in the PEA. The sites must be visited by the contractor, inspected for
compliance and a report made to the COTR. One plan/report can be submitted to cover multiple
sites having the same conditions”. OIG determined that it was not responsive to the
recommendation.

The above response was developed in consultation with the Mission Environmental Officer
(MEO). USAID/Haiti included recommendations on Environmental Compliance provided by the
Regional Environmental Advisor (REA) in the email sent to approve the new WINNER work
plan on October 31, 2011. All MEO and REA recommendations will be addressed in the
umbrella environmental mitigation and monitoring plan which will be submitted by WINNER by
mid-April 2012.

The Mission hopes that this additional clarification will allow recommendation 6 to be closed
upon issuance of the final report.


                                                                                                22
                                                                                      Appendix III



Recommendation 4: We recommend that USAID/Haiti implement water quality testing as
appropriate per USAID requirements and per the Program Environmental Assessment
requirements and document the results of these tests.

Mission Planned Action:

The Mission agrees with this recommendation. Drinking water provided in Gonaives will be
tested by the end of April 2012.

Recommendation 5: We recommend that USAID/Haiti develop procedures to integrate the
Regional Environmental Advisor and the Mission Environmental Officer into planning, design
and monitoring of Watershed Initiative for National Natural Environmental Resources program’s
activities.

Mission Planned Action:

USAID/Haiti responded as follows to this recommendation on November 17, 2011:

“The Economic Growth and Agricultural Development office (EGAD) has a new staff that is
responsible for helping the COTR oversee Chemonic’s compliance of Regulation 216. This
employee works in close collaboration with the MEO. The MEO organized a field visit with the
technical team in early September 2011. Joint field visits will now happen at least twice a year”.
In response, OIG asked how USAID will ensure that the REA and MEO are integrated into the
planning and designing phases of the activities.

Under ADS 201, the pre-obligation requirements include working with the MEO/REA/BEO for
the environmental procedures. This regulation is followed for all the projects, including
WINNER. The response provided by USAID in November 2011 mentioned measures taken to
improve environmental monitoring of the WINNER project. USAID therefore believes that with
the aforementioned clarification this recommendation should be closed.

Recommendation 6: We recommend that USAID/Haiti determine and document the necessary
actions to ensure that Chemonics provides adequate environmental oversight for the Watershed
Initiative for National Natural Environmental Resources program.

Mission Planned Action:

The Mission agrees with this recommendation. WINNER will recruit a new professional to assist
the Environmental specialist by August 2012. By this date, regional staff will be trained to be
able to monitor environmental compliance. Furthermore, a new Foreign Service Environmental
Officer arrived in the Dominican Republic in February 2012. Her duties are regional and Haiti
will be her primary focus. She will make regular trips to Haiti, which include field visits to Feed
The Future project sites.




                                                                                                23
                                                                                      Appendix III


Recommendation 7: We recommend that USAID/Haiti, in coordination with the appropriate
government of Haiti officials, develop a sustainability plan for proposed future infrastructure
work on this activity that establishes what entities are responsible for maintaining infrastructure
prior to undertaking further construction activities on the Grise River.

Mission Planned Action:

Public infrastructure is always rehabilitated in coordination with the GOH entity that is
responsible for maintaining it. For rivers, the Ministry of Agriculture is in charge, although
Ministry of Environment takes care of environmental issues. USAID also strengthens water user
associations that will manage the systems as required in the national irrigation policy. A
sustainability plan will be signed with the responsible GOH Ministries before we start any
infrastructure work.

Recommendation 8: We recommend that USAID/Haiti develop a plan for promoting the use of
non-chemical fertilizers and pesticides in the agriculture supply stores.

Mission Planned Action:

USAID/Haiti responded as follows to this recommendation on November 17, 2011:
“The Ecuador based environmental firm Sun Mountain was hired to work on these issues with
WINNER. They had their first mission in Haiti in November 2011. The Terms of References
(TORs) for this assignment is provided separately. University of Florida is also working on
Integrated Pest Management (IPM) alternatives that will reduce the use of pesticide in
WINNER’s intervention areas. The Mission is supporting the best approach for sustainably
improving soil fertility; a mix of organic and mineral fertilizers”.

USAD/Haiti advocates for the use of non-chemical fertilizers and pesticides by promoting
composting and integrated pest management techniques. Furthermore the use of pesticides under
the WINNER project complies with the Pesticide Evaluation Report and Safer Use Action Plan
(PERSUAP).

The Mission hopes that this additional clarification will allow recommendation 10 to be closed
upon issuance of the final report.

Recommendation 9: We recommend that USAID/Haiti develop an integrated pest management
training course to be provided to all farmers in the master farmer training program, to include, at
a minimum, safe pesticide use, essential protective equipment, and non-chemical control options.

Mission Planned Action:

USAID/Haiti responded as follows to this recommendation on November 17:

“The Ecuador based Environmental firm Sun Mountain was hired to work on these issues with
WINNER. They had their first mission in Haiti in November 2011”. OIG determined that the
response was responsive to the recommendation, specifying that issuance of the subcontract


                                                                                                24
                                                                                    Appendix III


would close this recommendation. WINNER is finalizing its negotiation with Sun Mountain. The
subcontract will be issued by March 15, 2012.

Recommendation 10: We recommend that USAID/Haiti’s Mission Environmental Officer, in
conjunction with Chemonics, develop formal procedures for periodically monitoring the
WINNER-supported supply stores.

Mission Planned Action:

USAID/Haiti agrees with this recommendation. Formal procedures will be developed and the
input stores will be visited by MEO or others once every 2 months, starting March 15, 2012.

Recommendation 11: We recommend that USAID/Haiti staff obtain training in biodiversity,
and consult with biodiversity staff in USAID/Washington in their program adjustments or
design.

Mission Planned Action:

USAID/Haiti agrees with this recommendation. As specified on November 17, 2011, USAID’s
senior natural resource management officer has attended training on biodiversity organized by
USAID. At least one other employee will be trained in the next 12 months. USAID/Haiti also
worked with several biodiversity advisors in Washington in the past and is currently planning a
TDY during the period of March 20 to March 30, 2012 for staff in Washington who will help
incorporate biodiversity activities in the Feed the Future initiative.

Recommendation 12: We recommend that USAID/Haiti institute a Mission policy for
documenting its application of biodiversity earmarked funds towards biologically significant
areas as determined by Haiti biodiversity assessments and ensure that it meets all four
biodiversity code requirements with earmarked funds.

Mission Planned Action:

USAID/Haiti accepts this recommendation and will work to implement it by May 30, 2012, with
support from Washington biodiversity staff.

Once again, we would like to express our appreciation for the professional manner in which the
audit was conducted. The initiative of listing in advance the documentation needed for the audit
contributed to a smoother implementation of the field work.

This audit has given us the opportunity to receive clear and to the point recommendations that
will enable us to improve overall management of activities conducted under the WINNER
program in Haiti.




                                                                                             25
                                                                                                 Appendix III


                               Key Program Activities as of July 2011

  Gonaïves/La Quinte            Cabaret/Montrouis               Cul de Sac                    Mirebalais
57 Activities(All),            66 Activities(All),        108 Activities(All),        66 Activities(All),
30 Completed (C), 12 In-       19 Completed (C), 29       47 Completed (C), 59        14 Completed (C), 30 In-
Process (IP), 15 dropped       In-Process (IP), 18 not    In-Process (IP), 2 not      Process (IP), 5 not started
(D)—                           started (NS)—              started (NS)—               (NS), 17 Dropped (D)—
$5.3 million                   $1.7 million               $10.6 million               $1.5 million

                                                  LIVELIHOOD
-Demonstration farms           -Demonstration farms       -Demonstration farms        -Demonstration farms
-Agriculture campaigns         -Agriculture campaigns     -Agriculture campaigns      -Agriculture campaigns
-Master farming training       -Agroforestry campaigns    -Master farming training    -Agroforestry campaigns
-Agro-supply stores            -Master farming training   -Agro-supply stores         -Master farming training
-Public-private partnerships   -Agro-supply stores        -PPPs (flowers)             -Agro-supply stores
(PPPs) (mangoes, biofuel)      -Restore biodiversity      -Restore biodiversity       -PPPs
All-18, C-7, IP-9, D-2         (mangroves, forests)       (nurseries, agroforestry)   -Restore biodiversity
$1.8 million                   All-30, C-14, IP-14,       All-39, C-9, IP-30, NS-0    (nurseries, agroforestry)
                               NS-2                       $4.5 million                All-31, C-13, IP-16, NS-1,
                               $1.3 million                                           D-1
                                                                                      $1.3 million
                                                INFRASTRUCTURE
-Stabilization of ravines      -River bank stabilization -Rainwater catchments        -Irrigation systems
-Irrigation systems            -Irrigation systems       -Irrigation systems          -Stabilization of ravines
-Reprofiling rivers            -Potable water systems    -Reprofiling rivers          -Potable water systems
-Potable water systems         -Flood warning systems -Potable water systems          -Flood warning systems
-Flood warning systems         -Canal drainage           -Flood warning systems       -Roads
-Canal drainage                -Rehabilitation of Roads -Canal drainage               All-11, C-0, IP-6, NS-1, D-4
All-22, C-19, IP-1, D-2        All-13, C-4, IP-8, NS-1,  -Roads                       $7,468
$3.2 million                   $333,062                  All-36, C-21, IP-14, NS­
                                                         1 $4.7 million
                                                  GOVERNANCE
-Watershed governance          -Watershed governance -Watershed governance            -Strengthen representative
-Disaster management plan      structures                structure                    governing bodies
for watershed                  -Survey and technical     -Irrigation canal            -Identify, assess, and make
-Training in watershed         assistance, disaster      management                   recommendations on policy
management                     preparation activities.   -Training in watershed       constraints
-Watershed management          All-16, C-1, IP-4, NS-11 management                    All-17, C-0, IP-4, NS-2,
plan                           $23,634                   -Watershed                   D-11
All-12, C-3, IP-0, D-9                                   management plan              $20,134
$11,074                                                  All-20, C-6, IP-13, NS-1
                                                         $671,307
                                      PUBLIC-PRIVATE PARTNERSHIPS
-Establish PPP agreements      -PPP for up to 400         -PPPs for corn, sugar       -Sugar cane production in
between agroprocessors         laying hens units          cane, poultry, Jatropha     Mirebalais
and producer associations      -Connect small-scale       All-13, C-11, IP-2, NS-0    -PPP agreements for
-Organize up to 400 laying     manufacturers with         $758,033                    mangoes
hens units                     training in chicken coop                               -PPP for up to 200 laying
All-5, C-1, IP-2, D-2,         production                                             hens units
$313,670                       -PPP agreements for                                    All-7, C-1, IP-4, NS-1, D-1
                               mangoes                                                $148,377
                               All-7, C-0, IP-3, NS-4
                               $0
                                                                                                            26
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

             Tel: 202-712-1150 

            Fax: 202-216-3047 

            www.usaid.gov/oig

